                        Accounting System Review

                                 March 2004

                     Reference Number: 2004-1C-077




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                           March 23, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                 Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

       SUBJECT:              Accounting System Review (Audit #20041C0223)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s overall
       accounting system controls as of January 15, 2004. The purpose of the examination
       was to assure the contractor’s system of accounting control is adequate to provide costs
       that are reasonable and compliant with applicable laws and regulations. The
       examination also evaluated the contractor’s compliance with the system’s internal
       control requirements.
       The DCAA stated that the overall accounting system and related internal control policies
       and procedures of the contractor are adequate. However, although not considered a
       significant deficiency at this time, the DCAA noted another matter involving the
       contractor’s accounting system and related internal controls. The DCAA suggested the
       contractor revise its ethics policy to require every employee to read and formally
       acknowledge agreement/disagreement with the ethics policy on a yearly basis. The
       DCAA indicated that the contractor agreed with the recommendation.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
